                                                         NATIONAL SCIENCE FOUNDATION
                                                          OFFICE OF INSPECTOR GENERAL
                                                            OFFICE OF INVESTIGATIONS

                                                CLOSEOUT MEMORANDUM




                  As part of a proactive investigative review of REU site awards for compliance with NSF
          regulations and policies on the use of living organisms (i.e., humans and vertebrate animals) in
          research, we identified an award' which failed to identify both human subjects and vertebrate
          animals on the proposal coverpage. The universit J demonstrated that the project had received
          preliminary Institutional Review Board (IRB) approval for the human subjects components, and
          although approvals for some of the components had lapsed during the project, current approvals had
          been obtained. The university also determined that vertebrate animal work, primarily observational
          in the laboratory, had been conducted without the requisite Institutional Animal Care and Use
          Committee (IACUC) review and approval. The university took corrective action and notified the
          Office of Laboratory Animal Welfare of the i n ~ i d e n t .The
                                                                      ~ university reviewed its complete NSF
          award and pending proposal portfolio to ensure that it was in compliance, finding only a single award
          with a lapsed IRB approval. However, that project maintains its status under an exemption. No
          further action is necessary.

                     Accordingly, this case is closed.




            The Animal Welfare Assurance covering the project was issued by OLAW and therefore OLAW's notification was




NSF OIG F o ~ m2 (1 1/02)
